<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-100, Part 5]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 111-100, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                             JUNE 18, 2009


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2010--Part 5  EMERGING THREATS AND CAPABILITIES



                                                  S. Hrg. 111-100 Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                             JUNE 18, 2009


         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
52-624                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                   JACK REED, Rhode Island, Chairman

EDWARD M. KENNEDY, Massachusetts     ROGER F. WICKER, Mississippi
ROBERT C. BYRD, West Virginia        LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 MEL MARTINEZ, Florida
E. BENJAMIN NELSON, Nebraska         RICHARD BURR, North Carolina
EVAN BAYH, Indiana                   SUSAN M. COLLINS, Maine
MARK UDALL, Colorado

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                    U.S. Special Operations Command
                             june 18, 2009

                                                                   Page

Olson, ADM Eric T., USN, Commander, U.S. Special Operations 
  Command........................................................     4

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                        THURSDAY, JUNE 18, 2009

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                    U.S. SPECIAL OPERATIONS COMMAND

    The subcommittee met, pursuant to notice, at 2:28 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Martinez, and 
Wicker.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; Thomas K. McConnell, professional 
staff member; and Michael J. Noblet, professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; and Dana W. White, professional 
staff member.
    Staff assistants present: Paul J. Hubbard, Christine G. 
Lang, and Jennifer R. Knowles.
    Committee members' assistants present: Carolyn Chuta, 
assistant to Senator Reed; Patrick Hayes, assistant to Senator 
Bayh; Dan Fisk and Brian W. Walsh, assistants to Senator 
Martinez; and Erskine W. Wells III, assistant to Senator 
Wicker.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order and welcome 
Admiral Olson and Senator Wicker.
    Today we are welcoming Admiral Eric T. Olson, Commander of 
the United States Special Operations Command (SOCOM), to 
testify regarding the President's fiscal year 2010 budget 
request for SOCOM. The threats our Special Operations Forces 
are facing around the world and the challenges facing the 
command as it seeks to meet today's requirements while also 
ensuring future needs are the focal point of our discussions 
today.
    Admiral Olson represents more than 55,000 military and 
civilian SOCOM personnel, who are fulfilling a variety of 
missions all over the globe in the fight against terrorists and 
to further other United States security interests. In the last 
year, Special Operations Forces (SOF) conducted operations and 
training in more than 100 different countries.
    However, more than 85 percent of SOF are currently 
concentrated in the Central Command (CENTCOM) theater. I look 
forward to hearing Admiral Olson's thoughts on how the drawdown 
of conventional forces in Iraq is likely to impact the SOF 
deployed there. While our conventional force continues to 
reduce its footprint, there is no indication that the 
requirements for SOF and the unique skill set they bring to the 
fight will be similarly reduced for the foreseeable future. 
Special operators will continue to require enabling support, 
including airlift and intelligence, surveillance, and 
reconnaissance, as they remain in Iraq to carry out kinetic and 
nonkinetic missions against the enemy. These missions come with 
significant risks, and SOF must continue to receive adequate 
support from their general purpose counterparts if they are to 
remain successful.
    I also look forward to hearing Admiral Olson's thoughts on 
special operations activities in Afghanistan and specifically 
whether or not requirements for mobility and intelligence, 
surveillance, and reconnaissance assets are being adequately 
addressed.
    While the heavy commitment of SOF in Iraq and Afghanistan 
is understandable, SOCOM's focus must remain global. I am 
concerned about the ``opportunity cost'' of tying down so many 
forces in a single region for an extended period of time and 
how it is affecting the command's ability to maintain critical 
language and cultural skills and relationships in other parts 
of the world.
    Given the extraordinarily high operational tempo faced by 
SOF, the long-term sustainability of such deployment remains a 
concern. I know that addressing this challenge is one of 
SOCOM's highest priorities, and I look forward to hearing more 
from Admiral Olson on the recruiting, retention, and family 
support issues facing the command.
    I was pleased to see the fiscal year 2010 budget increased 
procurement funding after that portion of SOCOM's budget 
experienced a significant decrease from fiscal year 2008 to 
2009. Recent congressional testimony indicated that equipment 
procurement, including radios and some weapons, has lagged 
behind SOCOM's personnel growth in the last few years. I look 
forward to Admiral Olson's thoughts on any equipment shortages 
the command has experienced, and what steps are being taken to 
address these shortages.
    Lastly, I am interested in hearing Admiral Olson's thoughts 
on the balance of focus and resources on direct versus indirect 
action within the command. Direct action, kill-or-capture 
missions, are critical to dismantling terror networks, but are 
only truly effective when coupled with indirect activities 
aimed at winning the hearts, the minds, the support, and the 
confidence of the population. Some have argued that SOCOM has 
disproportionately focused on direct action in recent years at 
the expense of its indirect action community.
    Admiral Olson, it's a pleasure to have you with us today. 
We look forward to your testimony.
    I'm going to recognize Senator Wicker. He has informed me 
that there's a vote scheduled for 2:45 p.m.
    Senator Wicker. 2:50 p.m. now.
    Senator Reed. 2:50 p.m. now? Marked down from 2:45 p.m. to 
2:50 p.m.
    So, Senator Wicker?

              STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. Thank you, Mr. Chairman, and I very much 
appreciate the cooperation that you've already exhibited toward 
me as the ranking member.
    I want to thank Admiral Olson for being here today. In 
light of the fact that there will be a vote within 20 minutes 
or so, I think I will submit my full opening statement to the 
record, and simply state that I look forward to the Admiral 
testifying and answering questions concerning a wide range of 
issues, such as long-term sustainability, his efforts to 
increase SOF by 4 percent, and growing the force at that level 
without compromising quality, what efforts he's taking to deal 
with the strain placed on our troops because of extended and 
repeated deployments, and I also hope to have a discussion 
about efforts to enhance cultural and language proficiency.
    So, with that, I will yield back to the Chair, and ask that 
my statement be placed in the record in full.
    Senator Reed. Without objection, all statements will be 
placed in the record.
    [The prepared statement of Senator Wicker follows:]

               Prepared Statement by Senator Roger Wicker

    Mr. Chairman, thank you for scheduling this hearing to inform the 
committee on the current posture of U.S. Special Operations Command 
(SOCOM) as we prepare to begin deliberations on the National Defense 
Authorization Act for Fiscal Year 2010. Admiral Olson, I want to thank 
you for appearing before us today and for your many years of dedicated 
service. I'd also like to take a moment to send my deepest appreciation 
to the extraordinary soldiers, sailors, airmen, and marines under your 
command who continue to serve our country with the highest level of 
professionalism and skill, even in the most trying of circumstances. We 
in Congress take our obligation to these servicemembers seriously and I 
look forward to working with you to ensure they continue to be the 
best-equipped and best-trained fighting force in the world.
    Special Operations Forces (SOF) are playing an integral role in our 
struggle against terrorism in both Iraq and Afghanistan, and the 
demands on these forces will only increase in the months and years to 
come. Despite the planned drawdown of conventional forces from Iraq 
later this year, SOF will continue to maintain a robust presence in 
country. Couple this sustained presence with an increase of SOF 
personnel in Afghanistan, not to mention other commitments around the 
globe, and you have a force that is under immense pressure and strain. 
Just last week, Admiral, you stated that ``long-term sustainability 
remains a concern.'' I'm interested in what steps, if any, your command 
is taking to mitigate this stress.
    Mr. Chairman, I know this budget plans for a SOF increase of 4 
percent. Recently, I reviewed the ``SOF Truths'' in preparation for the 
hearing. Paraphrasing them, they state: humans are more important than 
hardware, quality is more important than quantity, SOF cannot be mass 
produced, and competent SOF cannot be created after the emergency 
arises.
    It seems that there is no quick and easy answer to mitigating the 
stress on our SOF. I note that you have said SOF cannot grow more than 
3 to 5 percent per year. Therefore, I am interested in hearing how the 
Special Operations community is achieving its growth objectives and how 
large our SOF can grow without compromising quality.
    It is important when discussing the strain placed upon our 
servicemembers as a result of extended and repeated deployments that we 
include their families, as well SOCOM has taken the family support role 
seriously and I appreciate the assistance they are providing through 
various innovative means, including the SOCOM Care Coalition, a program 
widely hailed as a remarkable success.
    I am also interested in what steps the command is taking to 
increase and enhance cultural and language proficiency among your 
personnel. While no one can doubt the importance of the direct action 
mission SOF performs, our ability to engage foreign populations through 
nonkinetic means will be the lynchpin of our long-term success in the 
struggle against terrorism. This will include continuing the training 
of indigenous security forces and other activities aimed at 
strengthening civic institutions, as well as taking measurable steps to 
limit civilian casualties. I am interested in your appraisal of SOCOMs 
current capacity and level of success in this vital role, particularly 
with regard to the training of Iraqi and Afghan security forces.
    With asymmetric threats and irregular conflict likely to dominate 
the security environment for the foreseeable future, the role SOF will 
play in our military strategy will prove invaluable. Striking the 
correct structural balance for SOCOM to meet this long-term demand will 
be of the utmost importance and I am interested in your vision for the 
future composition and role of SOF.
    Again, Admiral, thank you for taking the time to be with us today 
and I look forward to your testimony.

    Senator Bayh. Senator Martinez.
    Senator Martinez. Thank you, I don't have a statement.
    Senator Reed. Thank you very much.
    Admiral Olson? Please.

 STATEMENT OF ADM ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Good afternoon, Chairman Reed, Senator 
Wicker, and Senator Martinez. Thank you very much for the 
invitation to appear before the committee to highlight the 
current posture of the SOCOM.
    I'll say upfront that, thanks to the foresight, advocacy, 
and strong support of this body, we remain well-positioned to 
meet the Nation's expectations of its SOF.
    SOCOM and SOF are a team of teams. The joint force itself, 
those assigned by the military Services for most of their 
careers, comprises Special Forces, Rangers, SEALs, combatant 
craft crewmen, many submarine operators, Marine Corps special 
operators, fixed- and rotary-wing aviators, combat controllers, 
pararescue jumpers, practitioners of civil-military affairs and 
military information support, and more, all augmented, 
supported, and enabled by a wide variety of assigned 
specialists, great men and women, Active Duty and reservists, 
military and civilian, who generally work within the special 
operations community for an assignment or two over the course 
of their military careers, and bring us much value.
    SOF is a force that is well-suited to the operating 
environments in which we are now engaged. Its proven abilities 
have created an unprecedented demand for its effects in remote, 
uncertain, and challenging operating areas. Whether the 
assigned mission is to train, advise, fight, or provide 
humanitarian assistance, the broad capabilities of SOF make 
them the force of choice.
    Primarily, SOCOM headquarters is responsible for 
organizing, training, equipping, and providing fully capable 
SOF to serve under the operational control of geographic 
combatant commanders. In this role, SOCOM headquarters shares 
many of the responsibilities, authorities, and characteristics 
of a military department, including a separate, major force 
program budget, established by Congress for the purpose of 
funding equipment, materiel, supplies, services, training, and 
operational activities that are peculiar to SOF in nature.
    SOCOM is also responsible for synchronizing Department of 
Defense (DOD) planning against terrorists and terrorist 
networks globally. In this role, we receive, analyze, and 
prioritize the geographic combatant commanders' regional plans 
and make recommendations to the Joint Staff on force and 
resource allocations.
    Additionally, we are the DOD proponent for security force 
assistance globally. In this role, we expect to help foster the 
long-term partnerships that will shape a more secure global 
environment in the face of global challenges such as 
transnational crime and extremism.
    While the high demand for SOF in Iraq and Afghanistan--as 
you noted, Chairman Reed--has caused the large majority of SOF 
to be deployed to the CENTCOM area of responsibility (AOR), SOF 
do maintain a global presence.
    So far, in fiscal year 2009, SOF have conducted operations 
and training in 106 countries, as you noted, with operations in 
75 to 80 countries on most days. In most of these operations, 
SOF have taken a long-term approach to engagement designed to 
forge enduring partnerships that contribute to regional 
stability. This balance of effective direct and indirect skills 
inherent to the force, and an understanding of the operational 
context of their application, is the core of special 
operations. From support to major combat operations to the 
conduct of irregular warfare, SOF are often first in and last 
out, accomplishing their missions with highly capable, agile, 
and relatively small units. So, SOF must be properly manned, 
trained, and equipped to operate globally to the standard the 
Nation has come to expect. The SOCOM fiscal year 2010 budget 
request includes the resources necessary to continue providing 
full-spectrum, multimission, global SOF.
    While the SOCOM budget request has historically been robust 
enough to meet basic special operations mission requirements, 
the success of SOF depends not only on SOCOM's dedicated budget 
and acquisition authorities, but also on SOCOM's Service 
partners. SOF rely on the Services for a broad range of support 
and required enabling capabilities. With the combination of the 
SOCOM budget and the support of the Services, SOCOM seeks a 
balance, first, to have sufficient organic special operations 
enablers for speed of response to operational crisis, and 
second, to have enabling capabilities assigned in support of 
SOF by the Services for sustainment and expansion of 
operations.
    SOCOM headquarters will continue to lead, develop, and 
sustain the world's most precise and lethal counterterrorism 
force. We will provide the world's most effective special 
operations trainers, advisors, and combat partners with the 
skills, leadership, and mindset necessary to meet today's and 
tomorrow's unconventional challenges. This Nation's Joint SOF 
will continue to find, kill, capture, or reconcile our 
irreconcilable enemies, to train mentor and partner with our 
global friends and allies, and to pursue the tactics, 
techniques, procedures, and technologies that will keep us 
ahead of emerging and dynamic threats.
    Thank you again for the opportunity to appear before you 
today. I'll conclude my opening remarks with a simple statement 
of pride in the SOF that I'm honored to command and provide to 
other commanders. SOF are contributing, globally, well beyond 
what their percentage of the total force numbers would 
indicate. Every day they are fighting our enemies, training and 
mentoring our partners, and bringing value to tens of thousands 
of villagers who are still deciding their allegiances.
    I stand ready for your questions, sir.
    [The prepared statement of Admiral Olson follows:]

              Prepared Statement by ADM Eric T. Olson, USN

                        INTRODUCTION AND HISTORY

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for this opportunity to report on the state of the United States 
Special Operations Command (SOCOM).
    Created by Congress just over 22 years ago, the Command implemented 
its original charter and Title 10 authorities primarily as a resourcing 
headquarters, providing ready and relevant Special Operations Forces 
(SOF) in episodic engagements against threats to the Nation and its 
vital interests. Following the attacks of September 11, SOCOM quickly 
became a proactive, global and strategically focused headquarters while 
the Joint SOF were employed primarily in decisive direct action 
missions against terrorists and insurgents. Throughout, we have also 
taken a long-term approach of engagement in Central Command and other 
regions, designed to forge enduring partnerships contributing to 
regional stability. This balance of direct and indirect actions, the 
combination of high-end tactical skills and an understanding of the 
operational context of their application, is the core of special 
operations. Success of Special Operations depends on SOCOM's dedicated 
budget and acquisition authorities to meet SOF-peculiar mission 
requirements, heavily supported by general purpose force capabilities.

                      COMBATANT COMMAND FUNCTIONS

    SOCOM is responsible for synchronizing Department of Defense 
planning against terrorists and terrorist networks globally. In this 
role, we receive, analyze, and prioritize the Geographic Combatant 
Commanders' regional plans, and make recommendations to the joint staff 
on force and resource allocations. We also serve as an extension of the 
joint staff in the interagency arena. We have established effective 
collaborative venues to do this, collectively known as the global 
synchronization process. Because SOCOM does not normally have 
operational authority over deployed forces, the plans and operations 
themselves are executed by the Geographic Combatant Commanders.
    In October 2008, SOCOM was designated as the Department of Defense 
proponent for Security Force Assistance (SFA). This designation will 
cause SOCOM to perform a synchronization role in global training and 
assistance planning that is similar to our role in synchronizing 
planning against terrorist networks. This role will be another 
collaborative effort that is nested within our existing global 
synchronization process.
    Additionally, SOCOM is now the Department's designated lead for 
countering Threat Financing. In this capacity, we advocate the 
Department's policies in direct coordination with our interagency 
partners, primarily within the U.S. Treasury and Justice Departments.
    Although synchronization is a robust daily activity, a key element 
is the semi-annual Global Synchronization Conference, coordinated and 
hosted by SOCOM, designed to provide a venue for structured 
determination of roles, missions and priorities among organizations 
with equities in the outcome.

                   MILITARY DEPARTMENT-LIKE FUNCTIONS

    SOF must be manned, trained, and equipped to operate globally with 
unmatched speed, precision, and discipline within a culture that 
promotes innovation, initiative and tactical level diplomacy. To enable 
this, SOCOM has responsibilities and authorities similar to Service 
Departments and Defense Agencies. The key element of our ability to 
assure the readiness of SOF is the Major Force Program (MFP) 11 budget 
line.
    The people of the Special Operations community are its greatest 
asset, but we refer to MFP-11 as ``the pearl of SOCOM'' because it is 
the single greatest contributor to our ability to train, equip and 
sustain our force. We are grateful for the wisdom of Congress in 
providing MFP-11, and in its continued strong and knowledgeable support 
for the peculiar needs of SOF.
    A manifestation of this support is the recent expansion of SOCOM's 
section 1208 authority for fiscal year 2009.
    We pride ourselves on our understanding of the needs of our 
operational force and continually seek ways to accelerate delivery of 
essential equipment and systems. To this end, SOCOM established a new 
Directorate for Science and Technology (S&T) in early fiscal year 2009. 
S&T is responsible for technology discovery, technology developments 
and demonstrations, and rapid insertions of new capabilities to SOF in 
concert with our Acquisition Executive.
    New to the S&T portfolio is a unique `rapid exploitation' 
capability comprising a distributed network of SOF operators, 
technicians, engineers, and managers tasked to identify timely 
technical solutions to solve operational problems.

             DEVELOPMENT OF THE THREE-DIMENSIONAL OPERATOR

    The complexity of today's and tomorrow's strategic environments 
requires that our SOF operators maintain not only the highest levels of 
warfighting expertise but also cultural knowledge and diplomacy skills. 
We are developing ``3-D Operators''--members of a multi-dimensional 
force prepared to lay the groundwork in the myriad diplomatic, 
development, and defense activities that contribute to our Government's 
pursuit of our vital national interests.
    Fundamental to this effort is the recognition that humans are more 
important than hardware and that quality is more important than 
quantity. Investments in weapons platforms and technologies are sub-
optimized if we fail to develop the people upon whom their effective 
employment depends. Within SOCOM, we strive first to select and nurture 
the extraordinary operator and then to provide the most operationally 
relevant equipment.

           SPECIAL OPERATIONS FORCES RETENTION AND RECRUITING

    SOF retention remains one of our highest priorities. The factors 
that most influence retention of the force are the quality of the 
mission, the quality of individual and family support, operational 
tempo and monetary compensation. In 2008, Congress granted a 2-year 
extension of current SOF incentives designed to keep our senior 
operators in billets requiring their special skills and experience. Our 
retention is good, but long-term sustainability remains a concern.
    In November 2008, thanks to a very positive response by the 
Secretary of the Army and the approval of the Secretary of Defense, we 
made progress in one of SOCOM's high priority initiatives: increasing 
our level of regional expertise through the recruitment of native 
heritage speakers. As of today, over 100 legal non-permanent residents 
with special language skills and abilities have joined the Army under a 
pilot program. This new program, Military Accessions Vital to the 
National Interest (MAVNI), is something of a phenomenon within certain 
foreign populations of the United States and attracts highly qualified 
candidates. Some of these will serve in Special Operations units.
    SOF recruitment and retention programs must be innovative, flexible 
and open to possibilities previously deemed impractical. We will 
continue to refine our overall recruitment and retention strategies in 
coordination with the Department and the Services.

                          HEALTH OF THE FORCE

    SOF remain strong and ready despite an unprecedented operational 
tempo. They are, for the most part, doing what they joined the military 
to do and feeling that their impact is positive and meaningful. Still, 
we are asking a lot of them and their families, and we have every 
indication that they will be in ever-increasing demand.
    We must continue to support our personnel and their families to 
confront the future fragility of the force. We know well that 
psychological trauma is often observed in the families before it is 
manifested in the SOF operators themselves.

                SPECIAL OPERATIONS FORCES CARE COALITION

    SOCOM recognizes the correlation between supporting our wounded 
personnel and their families and overall mission readiness. As such, we 
have continued to develop programs within our award-winning (both the 
2006 Armed Forces Foundation's Organization of the Year, and the 2008 
Navy SEAL Warrior Fund's ``Fire in the Gut'' Award), nationally-
recognized SOCOM Care Coalition that looks after our entire SOF family. 
The Care Coalition is a responsive, low-cost clearinghouse that matches 
needs with providers and currently supports 2,300 wounded SOF warriors 
with every benefit of treatment, recovery, and rehabilitation to 
improve their opportunity to return to duty or to succeed in post-
military service. Working closely with the Office of the Secretary of 
Defense (OSD), the Services, and the Department of Veterans Affairs, 
the SOCOM Care Coalition has resolved myriad financial, logistical, 
social, occupational and other support issues for our wounded 
servicemembers and their families.

                     SERVICE ENABLING CAPABILITIES

    Demand for SOF is on the increase; yet, by their very nature, SOF 
are limited in size and scope.
    I am already on record as stating that SOF cannot grow more than 3 
to 5 percent per year in those key units and capabilities that must be 
developed within our own organizational structures and training 
pipelines. This growth rate will not meet the already obvious appetite 
for the effects of SOF in forward operating areas.
    The solution, beyond the necessary continued steady and disciplined 
growth of specific Special Operations capabilities, is to mitigate the 
demand on SOF by developing and sustaining supporting capabilities 
within the Services that are beyond their organic needs, and can 
therefore be used in direct support of Special Operations commanders. 
This will enhance the impact of forward-deployed SOF without placing 
additional demand on SOF's own limited enabling units.
    The enabling capabilities that must be provided in greater number 
by the Services include mobility, aerial sensors, field medics, remote 
logistics, engineering planners, construction, intelligence, regional 
specialists, interpreters/translators, communications, dog teams, close 
air support specialists, security forces, and others that permit SOF 
operators to focus more directly on their missions. Assigned at the 
unit or detachment level to support Joint SOF commanders away from main 
bases, the effects of such a combined force can be impressive.
    Our goal is balance: first, to have sufficient organic SOF-peculiar 
enablers to permit rapid response to operational crises; and second, to 
have enabling capabilities assigned in direct support of SOF for longer 
term sustainment and expansion of the operation. We are and will be 
dependent upon our Service partners for key force enablers. The non-
availability of these force enablers has become our most vexing issue 
in the operational environment. Another growing challenge, especially 
as we begin a responsible general purpose force drawdown in Iraq, is 
base operating support and personnel security for SOF remaining in 
dangerous areas after the larger force departs, as SOF cannot provide 
for itself.

        PERSONNEL MANAGEMENT AND READINESS ENHANCING AUTHORITIES

    Combat readiness depends on personnel readiness. Ready and relevant 
SOF can only be sustained with the recognition that our people, both 
our SOF operators and the full range of supporting personnel, are our 
top priority.
    Although title 10 holds the Commander, SOCOM, responsible for the 
combat readiness of SOF, many of decisions and processes that impact 
SOF's readiness are held within the Services. To address this 
situation, section 167 of the 2009 National Defense Authorization Act 
tasked SOCOM to submit proposals to enhance SOF personnel management. 
The SOCOM plan submitted to the OSD contains initiatives intended to 
improve coordination of personnel management, including assignment, 
promotion, compensation, and retention.

                 BUDGETARY AND ACQUISITION AUTHORITIES

    The Department's fiscal year 2010 base budget submission, along 
with the Overseas Contingency Operations request, recognizes the 
increasing role of SOF across the globe. As the administration 
rebalances toward an Irregular Warfare (IW) portfolio, we anticipate 
the importance of, and Services support for, IW will continue to 
increase. SOCOM is actively participating in the Department's 
Quadrennial Defense Review (QDR) with the view that the budget request 
before you this year will adequately serve as the bridge toward the 
results of the QDR and the fiscal year 2011 budget submission.
    In addition to an appropriate baseline budget, SOF readiness 
requires investment in the rapid fielding of both existing solutions 
and cutting edge technologies, even when the relatively small purchase 
quantities do not optimize production costs. SOCOM's aggressive use of 
our acquisition authority is a key factor in providing wide-ranging, 
time-sensitive capabilities to our widely dispersed and often isolated 
forces. Because our budget authority is limited to SOF-peculiar 
equipment and modifications, SOCOM also depends heavily on Service 
acquisition programs that develop and procure Service-common mobility 
platforms, weapons, ammunition, and other equipment that we then modify 
to meet SOF's mission needs.
    We are constantly evaluating our acquisition processes and looking 
for new opportunities to streamline and accelerate our acquisition 
procedures. An example of this is SOCOM's Urgent Deployment Acquisition 
(UDA) process which provides a rapid acquisition and logistics response 
to critical combat mission needs statements (CMNS) submitted by 
deployed SOF. Most UDA capabilities are delivered to operational forces 
within 6 months after receipt of the requirement. We will continue to 
sustain and modernize the force by equipping our operators, upgrading 
our mobility platforms and further developing persistent ISR sensors 
and systems. Intelligence, Surveillance, and Reconnaissance (ISR) 
platforms and their associated analysis and information distribution 
systems are now essential to success. Our needs for ISR are still 
undermet, and we must ensure that our ISR fleet is appropriately 
balanced for enduring global requirements.
    We will continue to rely on service ISR programs as we develop new 
capabilities to meet the dynamic Special Operations mission needs. We 
will continue our tactical focus with high-grade sensors on both manned 
and unmanned platforms. While some capabilities are truly SOF-peculiar 
and are within SOCOM's processes, most Special Operations capabilities 
are based upon Service-provided systems. It is therefore important that 
we immediately and collectively transition from a platform-based 
acquisition cycle to one that is capabilities-based, wherein 
capabilities such as ISR collection suites or specific weapons packages 
can be ``rolled on and rolled off'' a variety of ground, air, and 
maritime platforms to increase our tactical and operational reach. 
Implementation of such a cycle would allow SOCOM to buy, try and modify 
capabilities without being constrained by Service platform 
considerations, and also would allow SOCOM to upgrade modular 
capabilities at the pace of technology advancement.

                   SPECIAL OPERATIONS FORCES MOBILITY

    Future SOF will require a robust mobility fleet tailored to global 
demand and an ever-changing strategic environment. Our intent is to 
recapitalize our 37 oldest C-130 aircraft with modern C-130J aircraft. 
The first platforms in this program are already funded. SOCOM continues 
to evaluate the modernization options for the remaining aircraft to 
provide the optimum in force capability to the warfighter.
    SOCOM's Nonstandard Aviation program answers longstanding 
operational requirements for small team intra-theater movement in 
politically sensitive areas.
    We continue to evaluate the proper aviation capacity tailored to 
each Geographic Combatant Commander's prioritized needs in order to 
provide troop and cargo movement, aerial refueling and surveillance or 
penetration of denied areas through higher readiness rates and 
increased aircraft availability. We continue to explore emerging 
technologies that will enable these missions to be performed in a 
higher threat environment.
    The CV-22 remains one of SOCOM's premier programs. This 
transformational platform provides sufficient speed for long-range 
vertical lift missions within a single period of darkness. The CV-22's 
defensive systems, enhanced situational awareness, and Terrain 
Following and Terrain Avoidance (TF/TA) capabilities provide greater 
survivability for SOF aircrews and ground operators. We decommissioned 
SOCOM's fleet of venerable MH-53 Pave Low helicopters in October 2008, 
making accelerated delivery of CV-22 a top priority.
    The proliferation of inexpensive and advanced surveillance 
technologies and capabilities threaten SOF's unique access 
capabilities, particularly in denied or politically sensitive maritime 
surface and subsurface environments. To meet both the known and 
projected threats, we continue to seek designs and technologies that 
permit SOF to go where they are not expected.
    In 2007, SOCOM commissioned an analysis of ways that the US 
military can clandestinely move SOF over strategic distances into and 
out of littoral, medium-to-high threat environments. This study, 
combined with several other exhaustive analytical studies, led to the 
Joint Multi-Mission Submersible (JMMS) program. JMMS will provide 
longer range transits, through extreme water temperatures, with greater 
on-station endurance than current SOF undersea mobility platforms; 
thereby permitting a wider range of options to answer national 
requirements. Additionally, SOCOM needs to evaluate the potential to 
conduct long range, clandestine infiltrations by air.
    SOCOM also commissioned an Analysis of Alternatives (AOA) to 
address undersea mobility requirements in the 2015-2030 timeframe. The 
AOA was completed in February 2008 and confirmed the need for a new 
mobility system, now referred to as the Shallow Water Combat 
Submersible (SWCS). The SWCS program, initiated in 2008, will replace 
the legacy SEAL Delivery Vehicle and provide a significant increase in 
shallow water, clandestine access.

           SPECIAL OPERATIONS FORCES PRECISION STRIKE SYSTEMS

    SOF require a family of precision strike systems to address current 
and future static and mobile targets. The current inventory and 
capabilities of AC-130 ``gunships'' and smaller manned and unmanned 
platforms are insufficient to meet our need for guided munitions that 
minimize unintended deaths and damage. I intend to fill this capacity 
gap by installing a platform neutral Precision Strike Package on our 
existing MC-130W aircraft, and to field them as soon as practical. I 
will accept short-term risk in SOF's aerial refueling fleet in order to 
do this quickly, recognizing that a future program will be required to 
address the resultant shortfall.

                       SECURITY FORCE ASSISTANCE

    As the designated DOD proponent for SFA, SOCOM leads a 
collaborative effort to develop and provide DOD elements to enhance the 
capabilities of our allies and partners. We will assist the Chairman of 
the Joint Chiefs of Staff and the Secretary of Defense by recommending 
overarching priorities for force and resource allocation. Our product 
will be informed by several non-DOD government agencies, including the 
Department of State, and will be fully coordinated with the Services 
and Joint Forces Command. Our work in this very important area will 
include development of policy and legislative proposals to improve the 
efficiency and effectiveness of international military assistance 
programs.
    One method by which SOCOM is now able to assist in the development 
of foreign Special Operations capabilities is through the reallocation 
of funds under section 1208 authorities.
    SOCOM also strongly supports the administration's requests for 
section 1206, section 1207, and International Military Education and 
Training funding.

                 LANGUAGE AND CULTURE PROGRAM EXPANSION

    Last year we called attention to the importance of language and 
regional knowledge as essential to strengthening relations and 
facilitating more effective operations with foreign partners. We 
initiated recruiting, training, and personnel management mechanisms, 
and partnered with OSD and the Services to expand the pools from which 
the Services recruit. As mentioned earlier, the MAVNI program is a 
small and growing success in this regard. Historical models, such as 
the Korean Augmentation to the United States Army and the Alamo Scouts 
who operated in the Philippines during World War II, are also being 
evaluated. To meet more immediate tactical needs, we initiated steps to 
dedicate in-service translators and interpreters to our Army component 
for joint use. Individual development aimed at correctly aligning 
language testing, career management, and incentives remains important 
to our capability; therefore, we strengthened our institutional 
programs at the Army, Air Force, and Marine component level and worked 
closely with the Services and OSD to support our career model. We have 
a long way to go in recognizing and incentivizing such expertise as an 
operational necessity before we can truly develop and sustain real 
experts in specific key regions around the world. I call this ``Project 
Lawrence,'' after T. E. Lawrence of Arabia.

               SPECIAL OPERATIONS FORCES PERSONNEL GROWTH

    As stated earlier, our assessments indicate that SOF cannot grow 
more than 3 to 5 percent per year in those key units and capabilities 
that must be developed within our own organizational structures and 
training pipelines. This growth rate will not meet the appetite for the 
effects of SOF in forward operating areas.
    A partial solution is to mitigate the demand on SOF by developing 
and sustaining supporting capabilities within the Services that are 
beyond their organic needs and can be assigned in direct support of 
Special Operations commanders. This solution will enhance the impact of 
forward-deployed SOF without placing additional demand on SOF's own 
enabling units.

                         LOOKING TO THE FUTURE

    Today, SOCOM is a strategic-level organization that addresses 
global threats to our national interests. SOCOM observes trans-regional 
dynamics from a uniquely cross-organizational perspective. This 
perspective provides us with a comprehensive appreciation of the 
strategic environment that suggests that the type, scope, and scale of 
the security challenges facing our Nation have changed significantly in 
recent years. In light of this knowledge, our approach to the security 
environment must be increasingly agile and adaptive.
    The problems we must be prepared to address include the inability 
of nation states to deal with increasingly complex challenges or to 
meet the needs and expectations of their populations. These challenges 
are exacerbated by the growing number of non-state actors who have 
strategic effect in a networked and interconnected world. In the vacuum 
created by weak or failed governments, non-state actors have achieved 
greater influence over benign populations by addressing their basic 
needs and grievances, and by intimidating and sometimes brutalizing 
them into submission. When governments fail to address the needs of the 
population, they become irrelevant and the people will make choices 
that are shaped by their own immediate needs for survival.
    One such choice is to leave their current situation in the hope of 
finding greater opportunity. As a result, uncontrolled migration is 
occurring across the world and the challenges associated with this 
dynamic are manifesting themselves in numerous ways. A few examples are 
the accelerating urbanization that is overwhelming many under-developed 
cities; the burgeoning diasporas that are becoming increasingly 
difficult to assimilate into host nation societies; and the continuing 
brain drain that hinders growth in the developing world.
    Another choice that people make is to turn to non-state 
organizations, groups, or ``super-empowered individuals'' that 
demonstrate state-like capacities. In the best case, people will turn 
to a benevolent nonstate actor such as a nongovernmental organization, 
a moderate and tolerant religious group, or a local ethnic or 
traditional institution. However, we also see populations that must 
turn to extremist or criminal organizations, many of which are 
sponsored by rogue nation states. Nonstate groups such as al Qaeda, 
Taliban, Hamas, Hezbollah, MEND, Jamal Islamiyah, FARC, and MS-13 are 
growing in influence and shaping the choices of populations as nation 
states fail to adequately address their needs and grievances. In short, 
nonstate actors effectively compete for sovereignty with the 
traditional nation state system.
    Taken alone, uncontrolled migration, extremism, or crime are 
significant problems, but in combination the difficulty and complexity 
of these problems grow exponentially. We see a dangerous convergence of 
these problems, producing corrosive effects across the entire nation 
state system. Our perception of what constitutes a threat to our 
national security ought to consider these nontraditional and persistent 
threats, and therefore, we need to strike the proper balance within the 
Department of Defense and across our Government to address these 
threats.
    SOCOM favors a ``populace-centric'' approach in lieu of a ``threat-
centric'' approach to national security challenges. More specifically, 
we believe that SOF must focus on the environmental dynamics and root 
causes that create today's and tomorrow's threats and adversaries. This 
belief requires an approach that is integrated with the long-term work 
of civilian agencies, especially the State Department and U.S. Agency 
for International Development (USAID), to foster U.S. credibility and 
influence among relevant populations.
    SOCOM, as a strategic headquarters, applies an Irregular Warfare 
(IW) mindset towards national security. IW is a logical, long-term 
framework that focuses on relevant populations and describes the 
activities that the Department of Defense will perform to support 
State, USAID and other civilian agencies to address the many complex 
environmental challenges that are emerging on a global scale. The 
Irregular Warfare approach seeks a balance between direct and indirect 
activities that focus on the operational environment within the context 
of interagency and international collaboration.
    It is important to note that IW is not new to SOF. Unconventional 
Warfare, Counterterrorism, Counterinsurgency, Civil-Affairs, 
Information Operations, Psychological Operations, and Foreign Internal 
Defense are traditional IW activities and historic SOF core activities. 
What is new is that an Irregular Warfare approach requires broader 
participation on the part of the entire Department of Defense. We must 
also develop the appropriate mechanisms to effectively mesh DOD IW 
activities with the diplomatic and development efforts of our 
interagency partners.
    This comprehensive appreciation of the strategic environment is why 
SOCOM is committed to developing the ``3-D Operator.'' Understanding 
the synergy of development, diplomacy and defense, we see the ``3-D 
Operator'' as an essential element of a strategy that employs both 
``hard power'' and ``soft power'' methods.

                               CONCLUSION

    Thank you again for the opportunity to update you on SOCOM 
Headquarters and the SOF community. It remains a profound honor to be 
associated with this extraordinarily capable and uniquely innovative 
force and to represent them before this esteemed body.
    SOCOM headquarters will continue to lead and to manage the 
development and sustainment of the worlds most precise and lethal 
counterterrorism force. We will provide the world's most effective 
Special Operations trainers, advisors and combat partners. We will 
provide advice and comment on issues of national security.
    This great Nation's Joint SOF will continue to find and kill or 
capture our irreconcilable enemies, to partner with our global friends 
and allies, and to pursue the tactics, techniques, procedures and 
technologies that will keep us ahead of dynamic threats.
    You have much cause for deep pride in your SOF. They, and I, thank 
you for your continued service and support.

    Senator Reed. Thank you very much, Admiral. I wish that you 
will convey to your Special Forces operators our great respect 
and appreciation for what they're doing.
    Admiral Olson. Thank you, sir, I will.
    Senator Reed. Thank you very much.
    As I suggested in my opening statement, there's an issue 
of, as we draw down in Iraq, conventional forces redeploying 
and there's the expectation that SOF elements will help us make 
that transition and continue our presence there. Do you see any 
complications, in terms of this withdrawal, in terms of support 
for your operators and the continued presence of your 
operators?
    Admiral Olson. Sir, thank you. The short answer is, yes, we 
see complications, but none that can't be overcome. The reality 
is that, whether the force presence in an area is small or 
large, it requires some degree of support for cordon-and-search 
forces, quick-reaction forces, medical support, air-control 
support, airfield operations, intelligence analysts, all of 
that, whether the force is large or small. We are working 
closely with the Army and the Marine Corps, who are the main 
force providers, to ensure that, as the major forces draw 
down--and we've seen no indication that special operations 
drawdown will be commensurate with that--that there is a 
dedicated, reliable, available measure of support responsive 
enough to meet special operations needs.
    Senator Reed. Thank you, Admiral.
    We are moving, significantly, to the Afghanistan theater of 
operations, with your special operations, as well as 
conventional brigade combat teams and Marine regiments. As you 
point out in your testimony, you rely upon the support of other 
forces and other Services, one of which is airlift. There is 
some indication that many of the requests from special 
operations for airlift support in Afghanistan can't be 
fulfilled because of its limitations. Is that an accurate 
assessment, and what can we do about that?
    Admiral Olson. That's a true statement, Chairman. The 
reality is that there is simply insufficient rotary-wing lift, 
helicopter lift, available in Afghanistan. There is some moving 
there. The Marines have moved some airlift with their force 
into southern Afghanistan. There is Army aviation moving in. 
So, I can't predict precisely what the situation will be after 
those forces are settled and made available, but I believe that 
there will be, still, insufficient lift available.
    We are doing what we can to satisfy that by continuing to 
appeal to the Services for support, and to appeal to the 
operational commanders in the theater, to prioritize where they 
can and favor special operations support.
    Senator Reed. By the way, we'll do about 8-minute rounds, 
so everyone'll have a chance, I think, to ask questions before 
we have to run over and take a vote.
    Something that Senator Wicker pointed out, which I think is 
an excellent point, and that's just language and cultural 
skills. I'm old enough to remember when everyone studied 
Russian and everyone was a Soviet expert, and I never thought 
in my lifetime that that would all be history, at least the 
Soviet Union would be history.
    Now we find ourselves in areas with Arabic, Farsi, Pashtun, 
Chinese, et cetera. How well are you doing, given the fact that 
we're flowing so many people into CENTCOM, which has some of 
these languages, but then we have the traditional areas that 
concern across the globe and have other languages. Any 
comments?
    Admiral Olson. Sir, if the question is, ``How well are we 
doing?'' the answer is, we're not doing well enough. My opinion 
is that we still have a long ways to go to truly understand the 
operational contexts in the places where we are because we 
don't understand the people there well enough yet. Language is 
certainly a key way to gain insight into the people and how 
they interrelate.
    We do have a number of initiatives. One, I euphemistically 
call it Project Lawrence, is inspired by Lawrence of Arabia, 
but certainly is not limited to Arabia--Lawrence of Pakistan, 
Lawrence of Afghanistan, Lawrence of Colombia, Lawrence of 
wherever it is--because we are operating around the world, or 
assisting, or working with our partners.
    There are a number of initiatives contained within this 
that are beginning to show some benefit, but you know that 
language skill is a perishable skill, and it must be sustained, 
maintained, incentivized so that individuals will dedicate some 
of their free time to do it.
    All of the Services are moving forward in this regard. Our 
responsibility in special operations, I think, is to seek ways 
to really steep people in languages and cultures over the 
course of their careers. We do have some advantages in being 
able to regionally orient our force in order to do that.
    Senator Reed. Thank you. This is a good point, I think, to 
recognize Senator Wicker.
    Senator Wicker. Thank you very much.
    I think we're all agreed it's more than language 
proficiency that is needed; it's understanding that, in some 
cultures, and some countries, ``I'll think about it,'' really 
means, ``No way.'' You mentioned Lawrence of Arabia; Lawrence 
of Arabia depicted the concept of, ``It is written,'' in that 
particular culture, where there was nothing you could do about 
it because it was going to happen anyway, and it was written.
    In the Army, at least, there's been the concept of AOR, 
Admiral, where, over a career, the forces were, as you say, 
steeped in the people and steeped in the language. Is it true 
that we've had to get away from that because over 80 percent of 
our SOF are now deployed in either Iraq or Afghanistan? Do you 
think we'll ever get back to the concept of AOR, where a 
military member can stay for a long time, or keep coming back 
to the same place, and really understand that society?
    Admiral Olson. Yes, that's certainly the goal, Senator. The 
reality is that, historically, SOF, and Army Special Forces in 
particular, have been regionally oriented. Of the five Active 
Duty Special Forces groups, there was one allocated to each 
geographic combatant command region of the world, so we only 
had 20 percent of our force focused on CENTCOM. As Chairman 
Reed noted in his remarks, we've had about 85 percent of our 
force deployed to CENTCOM for the last several years. So, we 
have taken people regionally oriented to someplace else and 
assigned them to duty in CENTCOM. Over time they've adjusted to 
that, they've trained to that, but we have been in fewer places 
with fewer people, less often, for shorter periods of time, 
around the rest of the world because of our commitment in 
CENTCOM.
    Senator Wicker. Do you see that we are doing what we need 
to address that problem? Do you ever see us getting back to a 
situation where the skills are more widely spread?
    Admiral Olson. Sir, our current program grows actually one 
battalion in each of our Special Forces groups, giving us a 
fourth battalion. The intent is to enable us to get back into 
the region with that battalion, in a dedicated way. Whether or 
not we're able to do that as planned, time will tell, but that 
is the rate at which we can grow the force. So, we are doing 
what we can do, for now.
    Senator Wicker. Tell us a little about Project Lawrence. 
How many service personnel would be involved in this training 
project at this given time?
    Admiral Olson. Sir, in one way or another, we pump more 
than 15,000 people a year through some sort of language 
training. Every Green Beret, for example, has to prove 
proficiency at the one-one level, that's basic survival level, 
but it at least indicates some ability to operate in another 
culture. He has to qualify at the one-one level in order to put 
on his beret for the very first time.
    Senator Wicker. What does a one-one level get you?
    Admiral Olson. What will one-one get you?
    Senator Wicker. Yes.
    Admiral Olson. Not much, sir. It will get you the 
pleasantries, respect from the people you're conducting 
business with for the fact that you have taken some effort to 
learn a few words of their language. It won't enable you to 
have a sophisticated conversation or catch the evening news, 
typically. It's an introduction.
    So, in terms of steeping people in a culture, that doesn't 
do it. So, we do run advanced training courses. We've given 
directives across our force to qualify specific numbers of 
people at the two-two and three-three levels for specific 
languages, at a pace that is doable.
    The Army has leaned forward in initiating a program called 
Military Accessions Vital to the National Interest (MAVNI), and 
has recruited, now, I don't know the number this week, but I 
think it's somewhere around 300 people, who are native 
linguists, who are in the United States as non-immigrant 
residents. This is a new program, initiated just in February, 
so it's already demonstrated a great success, and there's a 
vibrant blog occurring.
    Senator Wicker. Is that MAVNI program just the Army?
    Admiral Olson. At this point, it is executed only by the 
Army. The Navy has an intent to execute the program, at a much 
smaller scale. The Air Force has not indicated an intent to do 
it yet.
    Senator Wicker. So, we would be recruiting, essentially, 
foreign nationals who wish to become American citizens and 
giving them a fast track because of their service as visa-
holders?
    Admiral Olson. Yes, sir. These are visa-holders in the 
United States for a purpose--student, fiancee, work, athlete--
who meet a set of criteria to become eligible to enlist in the 
United States Army.
    Senator Wicker. But, certainly, they already know the 
language and the culture, and that's a great advantage there.
    Admiral Olson. Yes, sir. In fact, the evidence is that we 
are, so far, pulling in very highly qualified applicants. Most 
of them are college students or degree-holders. In fact, well 
over 75 percent have an associates degree or higher, at this 
point.
    Senator Wicker. Where are these advanced training courses 
that you mentioned being conducted? Are they being done by the 
Services?
    Admiral Olson. Mostly, we run our own training courses 
under our U.S. Army SOCOM at Fort Bragg, NC. We do take 
advantage of service and defense schools, where we can.
    Senator Wicker. Have you looked into using our universities 
and our ROTC programs in this regard, partnering between 
detachments and language and international studies programs at 
the various universities?
    Admiral Olson. Yes, sir. We've looked at that. We're taking 
advantage of a few of those programs. For example, the Olmsted 
Scholarship program, which permits a student to go to a 
university in a foreign country--I have some special operations 
students in it. But, we've found that keeping the student near 
where he lives, dedicated to language training full time, is 
the best way to obtain language skills quickly.
    Senator Wicker. As an Active Duty member.
    Admiral Olson. As an Active Duty member, yes, sir.
    Senator Wicker. Tell us what you need in this regard, 
Admiral, and Senator Reed, Senator Martinez, and I will try to 
bring that information to the full committee.
    Admiral Olson. Yes, sir. It's really a matter of capacity. 
First of all, we need the capacity to make the students 
available to go through language training full time, and then 
we need the schoolhouse capacity to absorb them into its 
programs. We have a plan in place, not yet fully funded, but 
we're seeking the funds within our own resources to do that, to 
expand our program incrementally. Most language training, 
frankly, takes place in a laboratory environment, utilizing 
native speakers as instructors. So, a lot of the native 
speakers are contract hires for that purpose, and that's the 
way that we can best get about the program.
    Senator Wicker. Thank you.
    Senator Reed. Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Admiral Olson, great to see you.
    Admiral Olson. Yes, sir.
    Senator Martinez. Always good to remember your home is in 
Tampa, and we appreciate your having your command there, and 
we're proud of that, and proud of the role of MacDill and the 
Tampa community play in hosting so many important missions for 
our military.
    I wanted to ask you a few questions about the joint cargo 
aircraft, or the ``gunship-light,'' as I guess it's referred to 
sometimes, the C-27J. There's been a decision made by the Air 
Force to reduce the number of airplanes that are going to be 
purchased to 38, which concerns me greatly, and I know you've 
expressed your opinion about the importance of this aircraft to 
some of what you do. I just wondered if you could tell the 
subcommittee how you view this aircraft and the importance of 
this aircraft to your mission. We have an aircraft here that's 
a little smaller, a little lighter, a little cheaper to 
operate, a little easier to get in and out of places, and 
perhaps with a smaller footprint. So, could you comment on the 
importance of this aircraft, to you and the operations that you 
and your forces conduct?
    Admiral Olson. Thank you, Senator Martinez.
    The requirement for an airborne platform to monitor an 
operational situation, with the capability of providing precise 
fires, is a very important requirement. I expect that, as the 
pace scale of operations in Afghanistan increases with the 
increased force level, it will become a capability that's even 
more in demand.
    We are working to develop, and in fact, we have made great 
progress in developing a platform-neutral, precision-strike 
package. The platforms that we are currently looking to install 
that on, as the most immediately available, are within our own 
MC-130 fleet. But, our own requirement study showed that, for 
global application, and regional application within CENTCOM, to 
a great degree, an airplane that gives us the capability to 
operate more remotely, with a smaller footprint, at a lower 
operating cost, off less-improved runways, is very important. 
An analysis of alternatives conducted by SOCOM identified the 
C-27J as the preferred alternative to meet that requirement.
    Senator Martinez. This was an aircraft that was going to be 
purchased by the Army, as well as the Air Force. Now it's only 
going to be the Air Force. I'm not sure it matters exactly 
which Service purchases it, as long as it's available to you 
and in sufficient numbers to be able to carry out your mission. 
My concern is, with 38, that we're not going to be in that 
position to do that, and I wondered if you shared my concern.
    Admiral Olson. Sir, at the time our analysis of 
alternatives was done, the C-27 had been selected through a 
competitive process as the Army joint cargo aircraft. We really 
do depend on Service commonality, to the extent that we can get 
it, in the platforms that we have. It becomes, then, the 
responsibility of the Service to procure the aircraft and 
provide it to us.
    So, to that extent, a Service common aircraft, whether it's 
in the Air Force or Army, is very helpful to us.
    Senator Martinez. I know we've had great success in the SOF 
in the retention and recruitment efforts. Are those still being 
maintained at levels that give you comfort, and what do you 
attribute the success to, as well?
    Admiral Olson. Yes, sir. We're on pace to achieve our 
programmed growth in almost every element of our force, but 
we're lagging behind a few percent in a couple of specialties. 
The largest portion of our growth, frankly, is in the Army 
Special Forces community, and they've proven that they're able 
to grow, essentially, a battalion-a-year increase to the force. 
So, we're actually ahead of pace on that.
    So, recruiting is good. Retention is satisfactory. The 
training pipelines are sufficient to produce the force that 
we're programmed to grow.
    I'm on record, Senators, of saying that, within our own 
pipelines, our own processes, our own institutions, we really 
can't absorb more than about 5 percent per year growth, and 
we're on pace to do that.
    Senator Martinez. I understand you were looking to replace 
the SEAL delivery vehicle with a new shallow-water combat 
submersible. Tell us where we are on that, and what is the 
status of that new vessel?
    Admiral Olson. Sir, the SEAL delivery vehicle is simply 
reaching the end of its service life, and so we're looking for 
the next-generation capability. We have about $3.2 million in 
the fiscal year 2010 budget for research, development, test, 
and evaluation in order to determine what the best craft will 
be to meet that need.
    Senator Martinez. Finally, let me ask you briefly about the 
challenge that you've undertaken to train Pakistani forces to 
assist in defeating the insurgents in Western Afghanistan, in 
the tribal border regions. How is that role going, and how are 
you doing in training the Pakistani forces? How are they doing, 
in terms of beginning to achieve the kind of success that will 
be necessary for them to have in order to achieve our goals?
    Admiral Olson. Sir, I'm the force provided for that 
mission, but I don't have operational control over those 
forces. Of course, once we deploy them, we monitor them very 
carefully. We're working very closely with the Pakistanis to 
provide partners to them at the pace and scale that they want 
and can accept them. That effort is going along in a way that 
is satisfactory for both countries. If I go deeper than that, 
sir, I think we'll have to go into closed session.
    Senator Martinez. Understood.
    In closing, I wanted to say thank you to you and the people 
who work under your command for the great successes that you've 
had, not only in Iraq and Afghanistan, now, and the challenges 
that Pakistan faces, but, I think, also something that doesn't 
get nearly talked about enough, is the incredible success 
you've had in Colombia, where we have really made a tremendous 
difference in one of our most important partners and neighbors 
in the region. We've really turned around a situation. I don't 
think we could have dreamed that things would be going as well 
as they are in that country, and a lot of it is due to the work 
of the Special Forces that we've had there--the success we've 
had in training the Colombians, and the joint work that we've 
done there is remarkable. I think it's also, perhaps, a 
blueprint to be followed elsewhere, and perhaps that's what 
you're doing in Pakistan, as well.
    Thank you for your service.
    Admiral Olson. Thank you for noting that, sir.
    Senator Reed. Thank you, Senator Martinez.
    We have a vote right now, in fact, they've reached the 
midway point in the timing. In addition, at the end of the 
vote, Senator Levin is going to ask us to remain so we can vote 
on nominations, including General Rodriguez, to assume his 
position in Afghanistan.
    What I would suggest, and I've talked to the ranking 
member, if there are additional questions, we would submit them 
to the Admiral for the record, and then we could adjourn at 
this moment.
    Senator Reed. I think, Admiral, that there's probably not a 
need, now, to go into closed session because I don't think 
there's an issue that we would raise here that would require 
that closed session.
    So, I thank you for your service, for your attendance here 
today, and for also being understanding. We are running around, 
as you are.
    So, at this point, with our deep appreciation and thanks to 
you and members of SOCOM, I will adjourn the hearing.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

               BALANCE BETWEEN DIRECT AND INDIRECT ACTION

    1. Senator Reed. Admiral Olson, in your prepared testimony, you 
discussed the importance of ``balance between direct and indirect 
activities'' in irregular warfare. Recent congressional testimony 
indicated that while the resources devoted to the indirect capabilities 
of Special Operations Forces (SOF) have increased since September 11, 
2001, the indirect warfare community within Special Operations Command 
(SOCOM) is still under-represented bureaucratically when compared to 
the direct action community. This imbalance has reportedly manifested 
itself in a number of areas including competition for resources, 
mission support, and promotions. Do you believe the indirect warfare 
community receives their fair share of funding and mission support 
within SOCOM?
    Admiral Olson. Overall, SOCOM's fiscal year 2010 baseline budget 
request is $5.9 billion. This funding will support SOCOM's continued 
role in defeating terrorist networks around the globe. Irregular 
warfare, counterterrorism, counterinsurgency, civil affairs (CA) 
operations, information operations, psychological operations (PSYOP), 
and foreign internal defense are traditional activities for SOF. This 
request provides the resources necessary to ensure SOF are properly 
trained and equipped to successfully execute these core activities.

    2. Senator Reed. Admiral Olson, some have suggested that the 
creation of a Joint Irregular Warfare Command, led by a three-star 
officer, should be created to counterbalance the direct action 
community within SOCOM. Do you believe this is an option that should be 
considered? If not, what other ways can SOCOM reorganize itself to 
adequately address the concerns of the indirect warfare community?
    Admiral Olson. No, I do not believe there is a requirement to 
create a new three-star Joint Irregular Warfare Command within SOCOM. 
If created, it would prove redundant and would possibly create a 
division between the indirect and direct approaches, which we seek to 
avoid. As such, the concept would not provide any further assistance or 
enhance the ongoing effort in monitoring the balance between direct or 
indirect approaches.
    Irregular warfare is a form of warfare that encompasses both the 
direct and indirect approaches. The irregular warfare concept, applied 
appropriately, strives to synthesize both approaches and bring all 
elements of U.S. national power to bear in a synchronized and 
coordinated manner. This means that elements of each approach are 
employed in an integrated, complementary fashion to address today's 
threats across the operational environment. As such, a balance must 
exist between these approaches focused on the operational environment 
within the context of interagency and international collaboration, a 
concept that SOF understand well, due to our history and experience in 
conducting irregular warfare.

    3. Senator Reed. Admiral Olson, some observers contend that 
national intelligence agencies focus on special operators engaged in 
direct action operations against terrorists and insurgents as the 
agencies assist the Department of Defense (DOD) in Afghanistan, Iraq, 
and elsewhere. Consequently, it is alleged that general-purpose forces 
and SOF engaged in foreign internal defense and population protection 
receive less intelligence support. Do you think that the national 
intelligence agencies are naturally drawn to support direct action 
operations?
    Admiral Olson. SOCOM receives a tremendous amount of support from 
the intelligence community and from the larger interagency community. 
SOCOM shares both analytical and operational partnerships at all levels 
from embedded support at SOCOM headquarters down to forward SOCOM 
supported deployed task forces. As an example, the National Geospatial 
Agency has embedded support at the headquarters, component, theater, 
and forward operating levels. The range of this support covers the 
gambit from direct action missions to humanitarian assistance. Many SOF 
task forces are engaged in direct action. However, the range of SOCOM's 
capabilities cannot be defined by this singular mission because it 
excludes the mutually supporting activities occurring at multiple 
levels. It is fair to say that direct action receives most of the 
public attention, but Combined Joint Special Operations Task Force-
Afghanistan's success is more correctly defined by its foreign internal 
defense and security force assistance engagement.

              SHORTAGES OF EQUIPMENT AND ENABLING SUPPORT

    4. Senator Reed. Admiral Olson, recent congressional testimony and 
news reports have indicated that the fielding of equipment, support 
personnel, and enablers have not kept pace with the growth in SOF. Some 
have argued that the SOF growth directed by the 2006 Quadrennial 
Defense Review (QDR) was not balanced with appropriate support, 
enabling personnel, or adequately resourced, resulting in shortages of 
equipment including weapons and radios. What is being done to ensure 
the recent and planned increase in SOF is adequately equipped to carry 
out their mission?
    Admiral Olson. SOCOM's QDR 10 Force Structure efforts focus on 
balancing the force between combat, combat support, and combat service 
support capabilities. QDR 2006 provided critically short/stressed SOF 
combat forces to SOCOM. Since QDR 2006, it became apparent based on 
current Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF) operations that the proper balance of combat-to-combat support 
and combat service support force structure was not achieved. SOF 
operations are clearly dependent on broader conventional force 
infrastructure. SOCOM is working with the Services via the QDR to 
ensure the balance of critical organic, dedicated support and direct 
support enablers are available to support global SOF operations 
including Security Force Assistance (SFA) and Foreign Internal Defense 
(FID). SOCOM is working closely with all of the QDR issue teams and 
leadership to ensure the critical enablers (such as rotary wing 
support, Civil Affairs, and recapitalization of gunships) are available 
to support future SOF operations.
    SOCOM continues to address equipping personnel associated with SOF 
growth from QDR 2006 by increasing the required basis of issue (BOI) of 
equipment through the SOCOM Requirements Evaluation Board (SOCREB) 
approval process as required. This process ensures the right types of 
equipment and the resources necessary to procure it are in place as new 
personnel come on board and/or enter critical training and deployment. 
These BOI adjustments are done as individual equipment items or as 
aggregate equipment items for specific SOF units. For example, in 
September 2007, the SOCREB approved BOI increases for over 150 
equipment items to address QDR 2006 growth to the 75th Ranger Regiment; 
in 2009 BOI increases for Multi-Band Inter-Team Tactical Radios for 
Naval Special Warfare Forces were approved as new forces and units were 
generated. SOF capacity and enabling capability shortfalls that were 
not adequately addressed in QDR 2006 are a focus of SOCOM's inputs to 
the Force Structure Phase of QDR 2010. Primary examples include 
shortfalls in rotary wing airlift capacity, and support from the 
Services for filling low density, high demand military occupational 
specialties (MOSs) that provide critical enablers to SOF.

    5. Senator Reed. Admiral Olson, your prepared testimony indicates 
that the non-availability of force enablers has become SOCOM's ``most 
vexing issue in the operational environment.'' You go on to say that 
general-purpose forces should develop and sustain supporting 
capabilities ``beyond their organic needs'' that can be used in 
``direct support of special operations commanders.'' What is the 
largest unmet requirement for support of special operations personnel?
    Admiral Olson. The Services do develop and sustain supporting 
capabilities beyond their organic needs; however, the current demand 
exceeds the supply. As a result, there are a limited number of general 
purpose forces available to optimize SOF especially in austere 
distributed operations. The largest unmet requirement requested by the 
geographic combatant commands to support SOF, whether you measure 
personnel requested or individual capabilities requested, is rotary 
wing aviation, intelligence support, engineer support, and military 
working dog teams. These capabilities provide mission essential combat 
support and combat service support that is currently required.

    6. Senator Reed. Admiral Olson, how have the Services reacted to 
your proposal of growing more support personnel for the support of SOF?
    Admiral Olson. For years, SOCOM has advocated four ``SOF Truths.'' 
This year, the command added a fifth SOF Truth, ``Most Special 
Operations require non-SOF support.'' To this end, the Services have 
been cooperative during this period of heavy demand. For example, the 
command recently completed SOCOM-Army staff talks, followed by a SOF 
enablers working group, which were both productive. SOCOM does not 
possess the full amount of organic support personnel and enablers 
required to conduct operations, which makes the continuation of the 
dedicated support provided by the Services to SOF critical to the 
success of current and future SOF operations.

    7. Senator Reed. Admiral Olson, do you believe there are additional 
support functions that should be grown within SOF?
    Admiral Olson. Yes, within select support functions, but this 
growth must continue to be complemented by additional Service enablers. 
The command is working very hard to achieve the right mix of, and 
balance between operators and support functions. Over the last 4 years, 
SOCOM has worked aggressively to increase the number of operators on 
the ground. Currently, a major focus is to right-size the force by 
seeking continued growth of organic combat support and combat service 
support.

                    ACQUISITION REQUIREMENTS PROCESS

    8. Senator Reed. Admiral Olson, many have criticized the DOD for 
the speed with which its acquisition system produces and delivers 
capability to the warfighter. There is broad consensus that the DOD 
should not waste unnecessary time when troops are engaged in combat if 
there is a clear, low-risk path forward with regard to an acquisition 
program. That goal must be balanced with the knowledge that some major 
systems acquisition programs are neither low-risk, nor is there a clear 
path forward.
    SOCOM's acquisition authorities are unique within the DOD. You are 
the only uniformed commander who has a senior acquisition executive 
reporting to you. That places a special burden on you to ensure that 
requirements are adequately vetted and balanced against available 
resources before moving forward with an acquisition program. The Weapon 
System Acquisition Reform Act of 2009 (Public Law 111-23) has a number 
of aims, one of which is to ensure that DOD adequately focuses on the 
requirements process portion of the acquisition cycle.
    What actions have you taken to ensure that the SOCOM requirements 
process filters out the nice-to-have ideas from the real requirements, 
or appropriately decides when something should be bought under rapid 
acquisition procedures versus the normal acquisition process?
    Admiral Olson. SOCOM has an established, proven, deliberate, and 
adaptable requirements process titled Special Operations Forces 
Capabilities Integration and Development System (SOFCIDS); this process 
is documented through SOCOM Directive 71-4. SOFCIDS parallels, and is 
fully compatible with, the Joint Capabilities Integration and 
Development System (JCIDS) process; approved Special Operations-
Peculiar (SO-P) documents are entered into the Joint Requirements 
Oversight Council (JROC) process. The command's SOFCIDS is managed by 
the Center for SOF Structure, Requirements, Resources, and Strategic 
Assessments. Within the command, SO-P capabilities documents are 
presented to a SOCOM Requirements Evaluation Board (SOCREB) for 
approval, chaired by the SOCOM Deputy Commander.
    SOCOM staff responsible for managing the SOFCIDS/JCIDS processes 
have completed the mandated requirements management certification 
(Weapon System Acquisition Reform Act of 2009 (Public Law 111-23)) 
program offered through the Defense Acquisition University. Some SOCOM 
requirements managers are also certified acquisition professionals. 
Requirements managers are tasked to ensure proper vetting and 
visibility of all SO-P capabilities documents using the SOFCIDS process 
that prescribes both the deliberate and rapid processes. The 
requirements vetting process that is used throughout includes analysis 
and verification of the capabilities-based assessments, evaluations of 
the technical feasibility and risk factors for the proposed materiel 
solution, validity of Key Performance Parameters, fiscal realities and 
resourcing strategies. Proposed requirements are staffed throughout 
SOCOM, and require proper certifications for intelligence 
supportability, operational mission need, and interoperability 
determinations prior to approval. Requirements are then prepared for 
validation by the J8 in preparation for presentation to the SOCREB, 
which is comprised of general/flag officer and Senior Executive 
Servicemembers who provide recommendations for approval/disapproval to 
the SOCOM Deputy Commander.
    For addressing SO-P urgent requirements, SOCOM has developed rapid 
acquisition procedures to satisfy capability gaps referred to as 
``equip for the fight, not for the force.'' This process, known as 
SOFCIDS-Urgent, is not used to equip all SOF components with a single 
item, but only in quantities for those in or going into combat. For 
those requirements that could lead to unacceptable force protection 
risk or potential mission failure, the command has developed a 
formalized Combat Mission Needs Statement (CMNS) process. Through Rapid 
Response Teams (RRTs), SOCOM subject matter experts work to 
expeditiously conduct and certify CMNS Need, Solution, and Resourcing 
and prepare courses of actions for presentation to the approval 
authority (SOCOM Deputy Commander). The majority of CMNS approved by 
SOCOM are for non-developmental items and only for necessary equipping 
(``fight'') quantities. When CMNS capabilities are determined to be 
enduring requirements for use beyond the duration of the current combat 
operations, or 1-year from fielding, the user-unit must document the 
enduring requirement and submit it for approval through the normal 
SOFCIDS processes.

   ADVANCED SEAL DELIVERY SYSTEM AND JOINT MULTI-MISSION SUBMERSIBLE

    9. Senator Reed. Admiral Olson, the Advanced SEAL Delivery System 
(ASDS) has a difficult history that was further complicated when much 
of the first submarine was destroyed by a fire on November 9, 2008. 
With the fiscal year 2010 budget request, SOCOM has announced plans to 
initiate a follow-on program called the Joint Multi-Mission Submersible 
(JMMS), based largely on the hull design and lessons learned from ASDS. 
Has the decision been made whether or not to repair ASDS-1? If the 
decision has been made, what is the rough schedule and cost of this 
repair?
    Admiral Olson. The requirement for the ASDS capability still 
exists. ASDS repair is estimated to cost $237 million and will be 
completed by the third quarter of fiscal year 2012, if the repairs are 
initiated this summer. SOCOM is pursuing various options to obtain 
funding to repair the vehicle. The program cost estimates have been 
reviewed by the cost engineers and are considered reasonable for the 
anticipated repairs. The Naval Sea Systems Command Program Office will 
continue to refine the cost and schedule estimates as additional 
information becomes available.

    10. Senator Reed. Admiral Olson, do you consider ASDS a SOCOM-
unique asset?
    Admiral Olson. The ASDS provides SOCOM the capability to conduct 
clandestine insertion or extraction of SOF and their equipment into 
denied areas from strategic distances. The ASDS also provides 
Geographic Combatant Commanders, Joint Force Commanders, and other 
government agencies the capability to conduct other types of 
clandestine missions in denied areas. As such, the ASDS provides the 
United States Government with a strategic national asset that can 
fulfill a variety of extraordinary requirements.

    11. Senator Reed. Admiral Olson, how many ASDS and JMMS platforms 
are needed to fully meet the requirement?
    Admiral Olson. One ASDS and three JMMS, for a total of four 
undersea clandestine mobility vessels, will meet SOCOM's requirement to 
conduct two simultaneous deployments.

    12. Senator Reed. Admiral Olson, what is the total cost of the JMMS 
program?
    Admiral Olson. The total acquisition cost for the JMMS program is 
estimated at $1.2 billion. This will provide three complete operational 
systems. The fiscal year 2010 President's budget includes $43.4 million 
pre-design refinement Research, Development, Test, and Evaluation 
funds.

    13. Senator Reed. Admiral Olson, how is the JMMS acquisition 
strategy different than the one used for ASDS?
    Admiral Olson. The strategy is based upon lessons learned and 
technology developed from the ASDS program to lower acquisition and 
performance risk. SOCOM in conjunction with the Naval Sea Systems 
Command program office is taking the following steps:

          (1) The JMMS program will use only high Technical Readiness 
        Level components vice new highly technical subsystems that were 
        used with the ASDS.
          (2) Program oversight will be greatly increased over the ASDS 
        by initiating JMMS as an ACAT ID Special Interest program vice 
        ACAT III; significantly increasing government program staff 
        assigned to perform programmatic and contractor oversight; and 
        by increasing the number of Milestone Decision Authority review 
        and decision points to six prior to commencing construction of 
        the first JMMS unit.
          (3) Increased effort has been applied to achieving better 
        match between performance desired by the warfighter and the 
        ability to develop and produce the product by industry.
          (4) Evaluation of the industrial capability of potential 
        contractors for production of JMMS will be a significant input 
        into selection of the contractor.
          (5) Cost estimates from the Cost Analysis Improvement Group 
        will be involved from the beginning of the JMMS acquisition 
        process and at a much higher level than with the ASDS.
          (6) Using historical data from ASDS, requested program 
        resources for JMMS will be matched to the requirements based on 
        evaluation of actual returned costs from the ASDS.
          (7) Consistent with the level of technical maturity required 
        and intent to limit cost growth, the JMMS program will use a 
        fixed price vice cost contract employed with ASDS.
          (8) The design for JMMS will take advantage of lessons 
        learned from the design of the ASDS by: directly or nearly 
        directly using components such as the pressure hull design, 
        mating system, and propulsor; providing significantly greater 
        detail to the contractor to enable compliance with all 
        requirements during the construction process; and aggressively 
        addressing all of the reliability problem recommendations from 
        the ASDS Critical Systems Reviews.
          (9) Lastly, the program office will establish earlier and 
        more comprehensive testing and evaluation that will include 
        detailed component level testing in advance of construction 
        through Operational Testing of the first JMMS system.

    14. Senator Reed. Admiral Olson, do you expect JMMS to deliver 
capabilities above what ASDS can provide or just to improve 
reliability?
    Admiral Olson. The ASDS and JMMS fulfill a common requirement. The 
JMMS is intended to incorporate the reliability improvements derived 
from the ASDS, not to change the capabilities required from the vessel. 
At the threshold level, the JMMS provides ASDS-1 level capabilities 
with improved reliability.

                        GUNSHIP RECAPITALIZATION

    15. Senator Reed. Admiral Olson, the AC-130 gunship has been used 
heavily and with great success in Iraq and Afghanistan, providing 
critical air support and overwatch for SOF conducting ground 
operations. However, the heavy use of the aircraft has taken its toll 
on these airframes and the demand for these aircraft far outweighs 
their availability. SOCOM currently has 25 AC-130 gunships, and I 
understand that there are plans to modify 8 MC-130Ws with a roll-on, 
roll-off precision strike and intelligence, surveillance, and 
reconnaissance package to meet urgent operational needs. I understand 
that you have also identified the modification of four additional MC-
130Ws as SOCOM's top unfunded requirement for fiscal year 2010. How 
many total gunships does SOCOM need to fully meet its requirements?
    Admiral Olson. SOCOM has a requirement for 33 airborne precision 
fire support platforms.

    16. Senator Reed. Admiral Olson, does this number take into account 
the significant increase in special operations ground forces?
    Admiral Olson. The long-term requirement for airborne precision 
strike platforms is 33. SOCOM currently has 25 gunships. We seek 16 
additional precision strike platforms to meet the immediate requirement 
in Afghanistan. Over time, we will attrite the 8 oldest in the 
inventory to achieve a steady state of 33.

    17. Senator Reed. Admiral Olson, are you aware of missions being 
cancelled in Iraq or Afghanistan due to a lack of gunship availability?
    Admiral Olson. With respect to AC-130 gunships in both OIF and OEF, 
there are more potential missions than gunships available. The Combined 
Joint Special Operations Air Component Commander (CJSOAC CDR), having 
responsibility of command and control of all AC-130 gunship assets in 
both OIF and OEF, must conduct real-time prioritization of these high-
demand, low-density assets. The CJSOAC CDR maintains the ability to 
shift gunship allocation to support ground forces and/or prosecute 
high-value targets based on mission priority.

    18. Senator Reed. Admiral Olson, what is SOCOM's long-term plan for 
replacing or modernizing the AC-130 gunship?
    Admiral Olson. SOCOM is developing and fielding a scalable, 
modular, platform-neutral, airborne sensor and weapons package with a 
common battle management system. This Precision Strike Package (PSP) 
can be configured to include multiple sensors, precision-guided 
munitions, gun systems, and other weapons. Using a modular approach 
allows the command to rapidly integrate proven systems on a variety of 
aircraft. In addition to the current gunship mission, SOCOM also has a 
requirement for a small footprint, sensor, and precision-strike 
capability to support SOF troops in austere and politically sensitive 
areas. SOCOM's original intent was to fill this capability gap with a 
SOF-modified, Service-common C-27J aircraft. Although this platform is 
currently not available, the capability gap remains. The goal is to 
ultimately recapitalize and expand the fleet of 25 AC-130H/U to 33 PSP-
equipped aircraft.

    19. Senator Reed. Admiral Olson, you indicated in your prepared 
testimony that the MC-130W modifications will force SOCOM to accept 
some short-term risk in its aerial refueling fleet and a ``future 
program will be required to address the resultant shortfall.'' Please 
elaborate on the risk SOCOM is accepting by modifying these C-130Ws.
    Admiral Olson. The specific PSP modification to the MC-130W still 
allows limited mobility capability and the short-term risk is within 
acceptable limits. To meet the immediate demand for airborne sensors 
and fire support, SOCOM intends to modify the fleet of 12 MC-130W 
aircraft with a PSP. Integrating PSP on an existing SOF mobility 
platform is the fastest way to provide SOF warfighters with increased 
capacity of armed over watch and precision-strike capability. The 
modular nature of PSP enables the command to add or remove precision-
strike capability to this platform as the requirements on the 
battlefield change.

                   MILITARY INFORMATION SUPPORT TEAMS

    20. Senator Reed. Admiral Olson, the National Defense Authorization 
Act (NDAA) for Fiscal Year 2009 requires the administration to develop 
a comprehensive interagency strategy for strategic communications and 
public diplomacy. While your command does not play a large role in 
strategic communications, SOCOM does have important and growing 
responsibilities in this area. SOCOM has deployed a number of Military 
Information Support Teams (MISTs) that work with embassy country teams 
to develop and implement information operations campaigns to counter 
support for terrorism and to counter radicalization in certain high 
priority countries. Are you aware of the reporting requirement in the 
NDAA for Fiscal Year 2009 and has SOCOM had a role in the development 
of the strategy the NDAA requires?
    Admiral Olson. We are aware of the strategy development and 
reporting requirements as codified in the NDAA for Fiscal Year 2009. 
SOCOM supports both the development of a comprehensive interagency 
strategic communication and public diplomacy strategy and will support 
any existing or emergent reporting and analysis requirements. At 
present, SOCOM is participating in a comprehensive strategy development 
at both the departmental and national levels.
    At the national level, SOCOM is supporting the development of an 
interagency strategic communication plan for Afghanistan and Pakistan. 
Led by the National Security Staff (NSS) through the Interagency Policy 
Committee (IPC) on Strategic Communication, SOCOM is participating with 
representatives from the Office of the Secretary of Defense (OSD) 
staff, the Joint Staff and CENTCOM to ensure the capabilities, 
authorities, and resources of DOD are effectively and efficiently 
reflected in the strategy. Specifically, SOCOM's collaborative planning 
processes and tools suite (known as Prospector) have been adopted by 
the NSS IPC and the National Counterterrorism Center as they lead the 
strategy development process. Operationally, in addition to the MIST 
capability mentioned above in the question, SOCOM executes multiple 
programs which support the ongoing efforts to counter violent extremism 
to include programs focused on intelligence analysis and assessment, 
information operations, psychological operations, and public affairs 
support both unique to SOCOM and in support of the efforts of the 
geographic combatant commanders and ambassadors in priority countries.
    At the departmental level, SOCOM is supporting OSD development of 
planning guidance for countering violent extremism. This effort, led by 
the Deputy Assistant Secretary of Defense (Joint Communication), 
connects the Countering Violent Extremism pillar of the 2008 National 
Implementation Plan for the global war on terror with the DOD plan for 
global operations against terrorist networks. As the DOD lead for 
synchronizing this planning, as specified in the Unified Command Plan, 
SOCOM will continue to assist OSD in the development of this 
consolidated planning guidance for the Department as it relates to 
countering violent extremism.
    As efforts toward a comprehensive interagency strategic 
communication and public diplomacy strategy continue to mature, SOCOM, 
at the direction of the SECDEF, will continue to support interagency 
planning processes, provide operational capabilities, and employ 
measurements of effectiveness for these efforts.

    21. Senator Reed. Admiral Olson, what is your assessment of the 
value of these MISTs to SOCOM's ongoing operations?
    Admiral Olson. The MISTs are an invaluable tool to SOCOM's ongoing 
operations. We provide MISTs to combatant commands (COCOMs) under our 
Title 10 authorities utilizing personnel primarily from our Army 
component, the United States Army SOCOM. These are small teams, 
generally four to six soldiers, comprised of individuals that are hand-
selected for their expertise and experience with the country they're 
needed for, the problem sets they're facing, and their ability to work 
with interagency partners, allies, and host nations. The MISTs work in 
close coordination with the local embassy to support the regional 
COCOM's operational and strategic military objectives by engaging host 
nation governments and selected segments of the population to advance 
U.S. interests. MIST operations are tailored also to support and 
enhance the mission of our theater SOCOMs. MISTs work hand-in-hand with 
the country team to amplify the U.S. embassy's information efforts and 
create synergy to achieve greater reach and effect within the area of 
responsibility (AOR). All actions are approved by the Ambassador and 
coordinated with the country team before execution. This relationship 
provides a constant liaison with COCOMs, U.S. embassies, and theater 
SOCOMs to accomplish information objectives designed to address and 
combat many of the underlying causes that support violent extremism and 
terrorism.

    22. Senator Reed. Admiral Olson, please articulate the value of 
MISTs to the broader U.S. strategic communications effort.
    Admiral Olson. The MISTs are a key tool in the overall strategic 
communications effort and provide a vital link between strategic and 
operational communicators within diplomatic, military, and information 
pillars of national power. The MISTs work with the embassy country team 
to execute COCOM CDR and the Ambassador's strategic communications 
objectives. They work in concert with embassy staffs and host nation 
organizations. MISTs communicate using all forms of media to build 
enduring information links and capacities for future use, from the 
ministerial level within a government down to the face-to-face 
engagements with the local population. MISTs are a key capability to 
deliver strategic communication themes and messages as well as 
providing military support to public diplomacy.

    23. Senator Reed. Admiral Olson, do you believe MIST operations 
have been adequately coordinated with the country teams where they are 
working?
    Admiral Olson. MIST operations are extremely well coordinated. All 
MIST activities are approved by the Ambassador and coordinated with the 
country team before execution. This begins with a request from the 
Ambassador for a MIST. The request defines when and for how long the 
MIST will operate in the country and the objectives he/she would like 
achieved. The MIST then develops an information program or plan, based 
on United States, COCOM, and theater SOCOM information requirements and 
then ties it to specific objectives outlined in the Ambassador's 
Mission Strategic Plan for his/her country. As the MIST develops 
messages and/or products for dissemination, they are reviewed and 
approved by the Ambassador or his/her designated representative before 
release. As you can see, from planning through development and 
dissemination, MIST operations are continuously coordinated with the 
country team and its efforts.

                    JOINT COMBINED EXCHANGE TRAINING

    24. Senator Reed. Admiral Olson, each year, our SOF participate in 
dozens of Joint Combined Exchange Training (JCET) sessions with partner 
nations around the world. These JCET sessions provide host nation units 
with valuable training in counterterrorism tactics, techniques, and 
procedures while also enhancing the language and cultural understanding 
of our own forces. Unfortunately, most of these JCET sessions are only 
episodic in nature, often only lasting a few weeks at a time. Do you 
believe more persistent engagement through JCET is desirable? If so, 
what is the greatest limiting factor in providing for persistent JCET 
sessions?
    Admiral Olson. Longer persistent engagement is better, but the end-
state must be clearly defined. One of the limiting factors to 
persistent engagement is the operational tempo (OPTEMPO) of the Partner 
Nation unit being trained. Oftentimes the units we engage with on a 
persistent basis perform a myriad of tasks for the partner nation. In 
some cases it is because of operational necessity, but other times it 
may be because of administrative or logistical issues. Human Rights 
Vetting (HRV) is always a concern. Even though HRV is good for a year 
it is something that requires a degree of vigilance to stay current and 
not become an impediment to engagement.
    Availability of SOF is another factor in limiting more quality 
persistent engagement opportunities. Geographic Combatant Commanders 
outside the CENTCOM AOR oftentimes are unable to maintain a constant 
presence with a dedicated unit due to limited availability of SOF.

    25. Senator Reed. Admiral Olson, roughly what percentage of JCET 
sessions are cancelled due to a lack of available special operations 
personnel?
    Admiral Olson. A total of three JCET have been cancelled during 
fiscal year 2009; one in fiscal year 2008 and three in fiscal year 
2007, about 1 percent per year. Most are cancelled due to host nation 
access or host nation OPTEMPO.

    26. Senator Reed. Admiral Olson, are there requests for JCET 
sessions from priority countries that have gone unfilled because of a 
lack of available special operations personnel? If so, which ones?
    Admiral Olson. Yes. During this fiscal year, one in priority 
country (PC) Jordan and one in high priority country (HPC) Lebanon, 
fiscal year 2008 one in PC Oman and for fiscal year 2007 one in HPC 
Mali and one in HPC Mauritania.
                                 ______
                                 
              Questions Submitted by Senator Roger Wicker

                SPECIAL OPERATIONS FORCES IN AFGHANISTAN

    27. Senator Wicker. Admiral Olson, are you confident that you will 
have sufficient enabler forces, specifically logistics, airlift, and 
linguist support, to sustain SOF in Afghanistan, given the significant 
increase in general purpose forces and the demands they will place on 
support personnel and equipment?
    Admiral Olson. I have full confidence that General McChrystal's 60 
day assessment will result in both an appropriate weighting of 
priorities for support and increase enabler support to SOF in 
Afghanistan.

    28. Senator Wicker. Admiral Olson, more broadly, do you believe 
there are sufficient SOF in Afghanistan to meet your requirements?
    Admiral Olson. No. SOCOM is a force provider of SOF in response to 
requirements forwarded by Commander, CENTCOM. There is now insufficient 
SOF available to meet the demand.

            TRAINING OF THE AFGHAN NATIONAL SECURITY FORCES

    29. Senator Wicker. Admiral Olson, please provide your assessment 
of SOCOM's current capacity and level of success in training Afghan 
security forces.
    Admiral Olson. SOF is partnered with the Afghanistan National 
Security Force (ANSF) throughout the country and together have had 
great success. SOF train and conduct operations by, with, and through 
ANSF on a daily basis. Noted deficiencies in Afghanistan is the fact 
there are not enough ANSF units partnered with SOF, and the inability 
to deploy ANSF units country-wide to conduct large-scale ANSF-led 
operations against the insurgency.

                DIRECT ACTION VS. NON-KINETIC OPERATIONS

    30. Senator Wicker. Admiral Olson, our long-term success against 
terrorism will depend on our ability to engage civilian populations 
through non-kinetic means and to win the war of ideas, rather than 
relying solely on direct action operations. Striking the correct 
balance between these is vital to forging a successful strategy. In 
visiting with General McChrystal, he discussed with me the difference 
between counterterrorism and counterinsurgency. What do you see as the 
correct balance between direct action operations and non-kinetic 
operations in Afghanistan?
    Admiral Olson. SOF plan and conduct both kinetic and non-kinetic 
operations. Direct action is a core task and one of the many kinetic 
types of operations that SOF conducts through the ANSF. All of our 
operations are intelligence-based rather than simply kinetic or non-
kinetic. SOF commanders plan and conduct kinetic and non-kinetic 
operations on a daily basis and routinely conduct non-kinetic 
operations as a follow-up to kinetic operations. This is used to 
maintain and regain support of the local populous for the legitimacy of 
the Government of Afghanistan (GOA). These non-kinetic operations are 
also led by the ANSF with SOF support.
    Furthermore, in the event of an unplanned kinetic event such as an 
enemy strike against our forces, an ambush on one of our convoys, or an 
IED detonation, SOF commanders have plans for ANSF led operations. This 
allows SOF and ANSF to go non-kinetic when tactically feasible 
following enemy strikes against our forces.
    Lastly, our strategic communication plan is utilized in addition to 
our kinetic and non-kinetic operations to help maintain and regain 
support of the local populous adding legitimacy for SOF and the GOA.

    31. Senator Wicker. Admiral Olson, what steps is SOCOM taking to 
win the war of ideas? Are we doing enough to ensure tribal leaders and 
the civilian population are informed when the Taliban or other 
insurgents kill civilians? What steps are being taken to counter 
Taliban propaganda?
    Admiral Olson. SOCOM synchronizes planning under its Unified 
Campaign Plan responsibilities and provides forces to COCOMs under 
title 10 authorities. SOCOM through DOD CONPLAN 7500 establishes 
specific tasks to the other COCOMs and suggestions for our interagency 
partners with regards to informing populations and countering adversary 
propaganda. SOCOM has worked through the Joint Staff and with the other 
COCOMs to acquire additional authorities to increase our commanders' 
freedom of movement in the information domain. Two examples include the 
Expanded Trans-Regional PSYOP Program and the Trans-Regional Web 
Initiative. These grant authorities to our forces inside the areas of 
hostilities to engage selected populations to do just what you ask 
here.
    Per General McChrystal: ``Our military strategic goal is to defeat 
the insurgency threatening the stability of Afghanistan. Like any 
insurgency, there is a struggle for the support and will of the 
population. Gaining and maintaining that support must be our overriding 
operational imperative.'' (USF-A/ISAF Policy Guidance).
    To that end, the two biggest tools we have to win the war of ideas 
are the truth and our actions. Many times, what we do is more important 
than what we say.
    SOCOM personnel are currently assigned to CENTCOM and also 
assisting U.S. embassies within the AOR. They are working for these 
organizations in a myriad of capacities to include engaging the 
population and countering propaganda. I believe that we're competing in 
the war of ideas better than we have in the past. While we are always 
seeking ways to improve our methods--to engage more people more 
frequently and with faster response times--we're proud of the 
capabilities in personnel and equipment we provide to ensure the truth 
is heard and understood. Our biggest weapon in countering Taliban 
propaganda is the truth.

                    2010 QUADRENNIAL DEFENSE REVIEW

    32. Senator Wicker. Admiral Olson, given the importance the 2010 
QDR will play in the development of the fiscal year 2011 and subsequent 
years' defense budgets, it is vital the drafting of this document is 
informed by the candid contributions of its stakeholders. Are you 
actively involved in the ongoing process to draft the 2010 QDR?
    Admiral Olson. The Under Secretary of Defense for Policy 
established a thorough and inclusive process by which the 2010 QDR is 
proceeding. SOCOM has been an active participant in this process from 
the beginning, and will continue to provide timely inputs toward the 
final report.

    33. Senator Wicker. Admiral Olson, what would be your top 
recommendations for this document concerning the future role, 
structure, and requirements of SOCOM?
    Admiral Olson. SOCOM's intent in the 2010 QDR is to sustain 
programmed growth to enhance SOF global presence, while simultaneously 
recapitalizing the force in accordance with established priorities. 
SOCOM is committed to an investment strategy which enables true global 
engagement to allow SOF, through a wider and more collaborative 
interagency partnership, to continue to bring security and stability to 
countries at strategic crossroads. Investments must therefore include 
material and nonmaterial solutions, new authorities in conducting both 
operations and training, and new policies in resourcing operations and 
training.
    While it is critical to have sufficient organic capabilities to 
ensure rapid responses to global crises, most SOF operations require 
non-SOF support. We are, and will continue to be, dependent on our 
Service partners to provide key force enablers for a broad range of 
support functions, including mobility, ISR, medical, and logistics. It 
is crucial to mitigate the demand on SOF by developing and sustaining 
supporting capabilities within the Services that are dedicated to 
support SOF. SOCOM is working to clearly define and establish these 
supporting capabilities and relationships within the framework of the 
QDR and through direct engagement and discussion with our Service 
partners.

                            PERSONNEL GROWTH

    34. Senator Wicker. Admiral Olson, you have stated, ``our 
assessments indicate that SOF cannot grow more than 3 to 5 percent per 
year . . . and this growth rate will not meet the appetite for the 
effects of SOF in forward operating areas.'' To what degree does this 
shortfall of SOF personnel affect your ability to meet global demands 
on your forces?
    Admiral Olson. With the unique, inherent capabilities of Special 
Forces, SOCOM projects the demand for SOF will remain high around the 
globe, and these capabilities cannot be mass produced. To best meet the 
global demand with the current and future force, the command is 
planning for 3 to 5 percent growth per year, based upon the ability to 
recruit, train, and sustain a quality force.

    35. Senator Wicker. Admiral Olson, are there any steps that can be 
taken, aside from growing the force, to mitigate this shortfall?
    Admiral Olson. One lesson learned over the last 8 years is that SOF 
must leverage enablers from the Services, because most special 
operations require non-SOF support. Aside from growing the force, SOCOM 
will continue to work with the Services to ensure there is sufficient 
dedicated support, specifically combat support and combat service 
support enablers.

    36. Senator Wicker. Admiral Olson, in your opinion, how large can 
SOF become without compromising on quality and still remain sustainable 
for the purposes of recruiting and retention?
    Admiral Olson. SOF growth cannot grow more than 3 to 5 percent a 
year. Because we rely on the Services for overall personnel management 
of the force, we are inextricably tied to the Service's personnel 
management infrastructure to include recruiting and basic training. 
Since September 11, SOF has experienced significant growth, but any 
growth must be balanced with the production pipeline of SOF and 
absorption into community force structure. We work closely with the 
Services to ensure we do not compromise quality.

    37. Senator Wicker. Admiral Olson, are there any current SOF 
missions that can be fulfilled or augmented by conventional forces?
    Admiral Olson. In an environment of increased security force 
assistance, many SOF missions require enabler support that can be 
provided by conventional forces. Additionally, there are a number of 
tasks that conventional forces could assist with or perform entirely 
such as: patrolling, traffic control point operations, maintenance, 
property accountability, noncommissioned officer development courses, 
et cetera. Many of those tasks are basic soldier skills and would not 
require specialized training or equipment. In many cases the units 
being trained lack even the basic soldier skills many conventional 
forces could be utilized to train.

    38. Senator Wicker. Admiral Olson, are there current missions that 
conventional forces are filling that should be filled by SOF?
    Admiral Olson. As a general rule there are no missions being 
conducted by conventional forces that should be filled by SOF. Due to 
the high demands placed on SOF, and the limited availability of those 
SOF resources, operational commanders have been exceptionally vigilant 
in the application of SOF-to-SOF missions. In some cases commanders are 
reviewing existing SOF missions, with the intent to transition those 
missions to conventional forces where appropriate and supportable. The 
trend has been to ensure conventional forces are executing conventional 
missions and SOF executing SOF missions. Of the 11 core activities that 
SOF performs, there exists a degree of overlap with the core 
capabilities of conventional forces. Direct Action, Security Force 
Assistance, and Counterinsurgency Operations are three core activities 
that SOF may share with conventional forces. It is incumbent upon 
commanders at each level to ensure a proper alignment of forces to meet 
a given requirement. In some cases the delineation may not be clear, 
but commanders and their staffs are diligent about matching a force to 
appropriate mission.

                          PERSONNEL MANAGEMENT

    39. Senator Wicker. Admiral Olson, you have submitted several 
policy proposals to increase SOCOM's involvement in the management of 
personnel, including some that you say require amending Title 10 of the 
U.S. Code. Several of these proposals have been met by resistance from 
the Services and even the Deputy Secretary of Defense. Please describe 
why you view these proposals, specifically the request to ``coordinate 
on Military DOD and Service personnel management policy and plans'' as 
necessary to the readiness of SOCOM forces.
    Admiral Olson. It is not the intent of SOCOM to become another 
Service. Rather, I seek alignment of readiness responsibilities with 
existing Title 10 requirements to ensure the combat readiness of Joint 
SOF. As written, 10 U.S.C. Sec. 167 assigns the responsibility of 
ensuring combat readiness of SOF to the Commander, SOCOM but only 
monitor-ship of personnel metrics such as promotions, assignments, 
retention, training, and professional military education of SOF 
officers. An amendment to Title 10 would align responsibilities with 
authority and ensure policy decisions affecting SOF would be 
appropriately coordinated.

  DEPARTMENT OF DEFENSE INSPECTOR GENERAL REPORT ON SOCOM CONTRACTING

    40. Senator Wicker. Admiral Olson, on May 28, 2009, the DOD 
Inspector General released a report on Logistics Support Contracting 
for SOCOM. This report was critical of your command's management of 
nearly $1.7 billion in logistic support contracts spanning 20 
locations. Some of the criticism was directed at a lack of adequate 
oversight, improper authority given to contractors to perform 
inherently government functions, and that no quality assurance plan was 
developed for contracting tasks. Please comment on this report and 
describe what steps, if any, are being taken to correct these 
deficiencies.
    Admiral Olson. The overall objective of the DOD IG audit was to 
determine whether the SOF Support Activity (SOFSA) logistics support 
contracts USZA22-03-C-0056 and USZA22-03-D-0006 were properly managed 
and administered by SOCOM. SOCOM has taken several steps to address the 
report's recommendations and improve existing oversight processes and 
procedures at SOFSA to include the following:

          (1) The Director of SOFSA has reinforced his efforts to 
        ensure contractor personnel are properly identified and perform 
        only non-inherently governmental tasks. For example, SOFSA has 
        reiterated in writing existing DOD and SOCOM Federal 
        Acquisition Regulations, supplement policy, and local 
        procedures that directs all SOFSA support contractors to 
        clearly identify themselves as contractors in all written and 
        electronic correspondence, while attending meetings, in 
        telephone conversations, and while working in other situations 
        where their contractor status is not obvious. All SOFSA 
        government personnel are responsible for daily and ongoing 
        checks of contractor adherence to policies related to the 
        proper use of contractor personnel.
          (2) The Director of SOFSA has reiterated to SOFSA customers 
        in writing that SOFSA will only accept contractual direction 
        and documentation signed by a government employee with 
        authority to issue said direction.
          (3) SOFSA has fully implemented a Quality Assurance 
        Surveillance Plan that ensures all work is performed to 
        government specifications. SOFSA also uses customer surveys, 
        monthly government review meetings, and customer generated 
        Quality Deficiency Reports to assess contractor performance.
          (4) SOFSA currently has nine government Contracting Officer 
        Representatives (COR) appointed to oversee active task orders. 
        Ten additional government employees are being trained for COR 
        duties and responsibilities. In addition, the Defense Contract 
        Management Agency has onsite quality assurance personnel 
        specifically dedicated toward independent oversight of aviation 
        maintenance operations.

   ADVANCED SEAL DELIVERY SYSTEM AND JOINT MULTI-MISSION SUBMERSIBLE

    41. Senator Wicker. Admiral Olson, ASDS has been plagued by 
significant delays and cost overruns since its inception over 15 years 
ago. Originally planned as a fleet of six submersibles, production has 
been stopped at one, and this submersible has been hobbled by repeated 
mechanical problems. What lessons has SOCOM learned during the 
development and production of ASDS?
    Admiral Olson. Just prior to the fire in November 2008, Northrop 
Grumman Corporation completed Phase II of the ASDS Improvement Program 
(AIP). The goal of the AIP was to review the ASDS design and make 
recommendations to address the known reliability deficiencies with the 
vehicle and to identify any changes that were required to address other 
potential reliability issues discovered in the course of completing the 
design reviews. Phase I of the AIP identified a total of 48 
improvements that either had been or were being developed for 
incorporation into the ASDS design. The AIP Phase II report included 
additional recommendations that the Naval Sea Systems Command is 
currently evaluating. The results of the AIP will be provided as part 
of the JMMS Request for Proposal, so the deficiencies can be addressed 
in the proposed design of the follow-on vehicle.

    42. Senator Wicker. Admiral Olson, what steps is SOCOM taking to 
ensure that the development of the follow on to ASDS, JMMS, does not 
encounter similar design and acquisition problems?
    Admiral Olson. The strategy is based on using lessons learned and 
technology developed from the ASDS program to lower acquisition and 
performance risk. SOCOM in conjunction with the Naval Sea Systems 
Command program office is taking the following steps:

          (1) The JMMS program will use only high Technical Readiness 
        Level components vice new highly technical subsystems that were 
        used with the ASDS.
          (2) Program oversight will be greatly increased over the ASDS 
        by: initiating JMMS as an ACAT ID Special Interest program vice 
        ACAT III; significantly increasing government program staff 
        assigned to perform programmatic and contractor oversight; and 
        by increasing the number of Milestone Decision Authority review 
        and decision points to six prior to commencing construction of 
        the first JMMS unit.
          (3) Increased effort has been applied to achieving better 
        match between performance desired by the warfighter and the 
        ability to develop and produce the product by industry.
          (4) Evaluation of the industrial capability of potential 
        contractors for production of JMMS will be a significant input 
        into selection of the contractor.
          (5) Cost estimates from the Cost Analysis Improvement Group 
        will be involved from the beginning of the JMMS acquisition 
        process and at a much higher level than with the ASDS.
          (6) Using historical data from ASDS, requested program 
        resources for JMMS will be matched to the requirements based on 
        evaluation of actual returned costs from the ASDS.
          (7) Consistent with the level of technical maturity required 
        and intent to limit cost growth, the JMMS program will use a 
        fixed price vice cost contract employed with ASDS.
          (8) The design for JMMS will take advantage of lessons 
        learned from the design of the ASDS by: directly or nearly 
        directly using components such as the pressure hull design, 
        mating system, and propulsor; providing significantly greater 
        detail to the contractor to enable compliance with all 
        requirements during the construction process; and aggressively 
        addressing all of the reliability problem recommendations from 
        the ASDS Critical Systems Reviews.
          (9) Lastly, the program office will establish earlier and 
        more comprehensive testing and evaluation that will include 
        detailed component level testing in advance of construction 
        through operational testing of the first JMMS system.

    43. Senator Wicker. Admiral Olson, do you believe the current 
development and acquisition capacity of SOCOM is adequate to produce 
large, exceptionally complex platforms, such as a miniature submarine?
    Admiral Olson. For exceptionally complex platforms, SOCOM leverages 
acquisition expertise and capacity residing in the appropriate military 
Service. Regarding the JMMS, the SOCOM Acquisition Executive in 
conjunction with the Assistant Secretary of the Navy for Research, 
Development, and Acquisition and his Program Executive Office for 
Submarines will jointly exercise oversight of this complex project 
through the execution of a Program Specific Memorandum of Agreement. 
However, SOCOM will continue to retain control of all SO-P funding.

    44. Senator Wicker. Admiral Olson, do you foresee any reforms 
necessary to creating this capacity?
    Admiral Olson. The JMMS will be procured in accordance with the 
requirements of the recently issued DODI 5000.2, including utilizing 
the new Navy gate review process and a competitive pre-design 
refinement. No additional reforms are considered necessary to ensure 
the success of this acquisition program.

                        INTERAGENCY COOPERATION

    45. Senator Wicker. Admiral Olson, the necessity of creating 
sustainable, long-term conditions for stability in foreign countries 
requires significant coordination between our military and civilian 
agencies, such as USAID and the intelligence community. What is SOCOM 
doing to ensure unity of effort among its personnel and those of 
civilian agencies who can provide useful support abroad?
    Admiral Olson. SOCOM has three main efforts to help ensure unity of 
effort among its personnel and the broader interagency community. The 
first is organization structure in which SOCOM has a standing 
interagency task force within its headquarters that includes 
representatives from the Department of State, U.S. Agency for 
International Development, the Federal Bureau of Investigation, the 
Central Intelligence Agency, the Drug Enforcement Agency, the National 
Security Agency, and several other agencies and departments. SOCOM has 
also placed over 40 liaison officers in over 18 Federal agencies and 
departments in the National Capital Region. These networks foster 
information sharing, coordination, and unity of effort between SOCOM 
and other agencies.
    The second effort is that of utilizing collaborative venues. SOCOM 
hosts the Global Synchronization Conference twice a year. This venue 
provides a collaborative platform for over 500 representatives from all 
of the Federal agencies and departments, as well as partner nations to 
discuss mutual issues and concerns in the domain of terrorism, 
insurgency, and irregular warfare.
    The third effort is education. SOCOM's Joint Special Operations 
University regularly provides interagency collaboration courses 
workshops and seminars that help prepare military and civilian 
personnel to operate successfully as part of an interagency team.

    46. Senator Wicker. Admiral Olson, have you encountered any 
roadblocks, bureaucratic or otherwise, that inhibit your ability to 
work in close coordination with these agencies?
    Admiral Olson. Interagency coordination has improved greatly since 
September 11. To assist in improving collaboration with other Federal 
agencies, SOCOM has established an interagency task force as an 
integral part of its headquarters and employs liaison officers 
throughout the National Capital Region. To take interagency 
coordination to the next level more still needs to be done in aligning 
interagency structures and communications and also incentivizing 
interagency assignments and training.

    [Whereupon, at 3:06 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
